IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1320
Veronica M. Johnson
Petitioner
v.
Rock Solid Janitorial, Inc.
Defendant, Appellee, jointly and severally
and
Selective Insurance Group, Inc.
Defendant, Appellee, jointly and severally
and
Selective Insurance Company of America
Defendant, Appellee jointly and severally
and
Selective Way Insurance Company
Defendant, Appellee, jointly and severally
Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

CERTIFICATE OF COMPLIANCE

Pursuant to U.S. Sup. Ct. R. 33(1)(h), Petitioner certifies that this REPLY BRIEF
contains 1,386 words, excluding word limits permitted by U. S. Sup. Ct. R.33(1)
LcAlt/LY01-eronica M. Johnson, Petitioner, Pro se
166 Yorkshire Road
Portsmouth, Virginia 23701
(757) 465-0348

July 9, 2020

